A
United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Cans
Clerk of Court

August 24,2020
Mr. Arthur J. Clemens Jr.
Suite 1008
400 N. Fourth Street
Saint Louis, MO 63102-0000
RE: 19-3554 Arthur Clemens, Jr. v. Local One, SEIU, et al
Dear Mr. Clemens, Jr.:
The court has issued an opinion in this case. Judgment has been entered in accordance
with the opinion. The opinion will be released to the public at 10:00 a.m. today. Please hold the
opinion in confidence until that time.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on post­
submission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing and petitions for rehearing en banc must be
received in the clerk's office within 14 days of the date of the entry ofjudgment. Counsel-filed
petitions must be filed electronically in CM/ECF. Paper copies are not required. No grace period
for mailing is allowed, and the date of the postmark is irrelevant for pro-se-filed petitions. Any
petition for rehearing or petition for rehearing en banc which is not received within the 14 day
period for filing permitted by FRAP 40 may be denied as untimely.
Michael E. Gans
Clerk of Court
NDW
Enclosure(s)
cc:

Mr. Gregory J. Linhares
Mr. George Suggs
District Court/Agency Case Number(s): 4:17-cv-02381-RLW

Appellate Case: 19-3554

Page: 1

Date Filed: 08/24/2020 Entry ID: 4948100

®ntteb States Court of UppealS
jfor tlje Ctgljtl) Circuit

No. 19-3554

Arthur J. Clemens, Jr.
Plaintiff - Appellant
v.
Local One Service Employees International Union; Tom Balanoff; Laura Garza;
Nancy Cross
Defendants - Appellees

Appeal from United States District Court
for the Eastern District of Missouri - St. Louis

Submitted: August 19, 2020
Filed: August 24, 2020
[Unpublished]

Before ERICKSON, STRAS, and KOBES, Circuit Judges.

PER CURIAM.

Appellate Case: 19-3554

Page: 1

Date Filed: 08/24/2020 Entry ID: 4948100

In this action against the Local One, Service Employees International Union
and its agents, Arthur Clemens appeals after the district court1 dismissed some of his
claims, adversely granted summary judgment on his remaining claims, and denied his
post-judgment motions. After careful review ofthe record and the parties’ arguments
on appeal, we find no basis for reversal. See Zink v, Lombardi, 783 F.3d 1089,1098
(8th Cir. 2015) (en banc) (per curiam) (dismissal under Fed. R. Civ. P. 12(b)(6) is
reviewed de novo); see also Banks v. John Deere & Co., 829 F.3d 661,665 (8th Cir.
2016) (grant of summary judgment is reviewed de novo); IBEW, Local Union No.
545 v. Hope Elec. Corn., 293 F.3d 409,415 (8th Cir. 2002) (denial of motion under
Fed. R. Civ. P. 60(b) is reviewed for abuse of discretion). Accordingly, we affirm.
See 8th Cir. R. 47B.

'The Honorable Ronnie L. White, United States District Judge for the Eastern
District of Missouri.
-2-

Appeliate Case: 19-3554

Page: 2

Date Filed: 08/24/2020 Entry ID: 4948100

6
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3554
Arthur J. Clemens, Jr.
Appellant
v.
Local One Service Employees' International Union, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:17-cv-02381 -RLW)
ORDER
/

The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
October 20, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-3554

Page: 1

Date Filed: 10/20/2020 Entry ID: 4967341

c.

Michael E. Gans
Clerk of Court

United States Court of Appeals
For the Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10lh Street, Room 24.329
St. Louis, Missouri 63102

VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

December 3, 2019
The Honorable William P. Barr
Attorney General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
Re: No. 19-3554 Arthur Clemens, Jr., v. Local One, Service Employees Int’l Union
Dear Attorney General Barr:
Pursuant to the provisions of Federal Rule of Appellate Procedure 44(a), I hereby
provide notice that the Plaintiff/Appellant in this pending appeal has notified the court that
he intends to challenge the constitutionality of 29 U.S.C. § 481 (c).
This case arises from the United States District Court for the Eastern District of
Missouri, No. 4:17-cv-2381 RLW.
Enclosed are the materials forwarded to the court.
Please advise the court whether your office intends to file a brief and participate in
this case.
Sincerely,
Robin J. Weinberger
Chief Deputy Clerk
Enclosure (Service List, docket sheet, and attachments)
cc:
Counsel of Record

Case: 4:17-cv-02381-RLW Doc.#: 37 Filed: 02/22/18 Page: 1 of 4 PagelD#: 227

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
ARTHUR J. CLEMENS, Jr.,
Plaintiff,
v.
LOCAL ONE, SERVICE EMPLOYEES
INT’L UNION, etal.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 4:17-CV-2381 RLW

MEMORANDUM AND ORDER
This case is before the Court on a motion filed by the pro se plaintiff, Arthur J. Clemons,
to declare a portion of 29 U.S.C. § 481(c)1 unconstitutional and on his motion to compel.
In his motion to declare § 481(c) unconstitutional, Plaintiff argues that Congress enacted
the provision at issue on the assumption that local unions were indeed local. Local One,
however, is regional, operates in six states, and has its principal office in Chicago. These
circumstances require a potential candidate for union office to travel to Chicago and to there
attempt to inspect a list of at least 47,000 members. Consequently, Plaintiff and others are
effectively prevented from running for office.

i

Plaintiff mistakenly refers to the statute at issue as 29 U.S.C. § 281(c). He quotes, however,
§ 481(c). That section provides, in relevant part:
Every bona fide candidate shall have the right, once within 30 days prior to an
election of a labor organization in which he is a candidate, to inspect a list
containing the names and last known addresses of all members of the labor
organization who are subject to a collective bargaining agreement requiring
membership therein as a condition of employment, which list shall be maintained
and kept at the principal office of such labor organization by a designated official
thereof.

p
/

Case: 4:17-cv-02381-RLW Doc.#: 37 Filed: 02/22/18 Page: 2 of 4 PagelD #: 228

Although styled as a motion to declare § 481(c) unconstitutional, the pleading presents
two causes of action and is more properly construed as a proposed amendment to the pending
ten-count complaint. Pro se parties are expected to follow the civil rules of procedure, court
orders, and local rules. In re Leiferman, 428 B.R. 850, 854 (B.A.P. 8th Cir. 2010); Johns v. City
ofFlorissant Police Dep’t, 2018 WL 867944, *3 (E.D. Mo. Feb. 14,2018); Viehweg v. Mello, 5
F.Supp.2d 752, 761 (E.D. Mo. 1998). Federal Rule of Civil Procedure 15(a) establishes the
procedure to be followed when, as in the instant case, a plaintiff wishes to amend his complaint
after an answer has been filed. If Plaintiff wishes to amend his complaint to add counts
challenging the constitutionality of § 481(c), the proper motion to amend must be filed.
At issue in the motion to compel are six of the nineteen requests for production of
documents.
The first of the six requests is for “[c]opies of all documents which support entries made
in the OLMS LM-2 reports regarding Local One, SEIU for 2015 and 2016, pursuant to 29 U.S.C
§ 431(c).”2 Defendants object to this request on the grounds that § 431(c) already provides
Plaintiff with access to the information. The Court agrees.

Section 431(c) provides, m relevant part:
Every labor organization required to submit a report under this subchapter shall
make available the information required to be contained in such report to all of its
members, and every such labor organization and its officers shall be under a duty
enforceable at the suit of any member of such organization in any State court of
competent jurisdiction or in the district court of the United States for the district in
which such labor organization maintains its principal office, to permit such
member for just cause to examine any books, records, and accounts necessary to
verify such report.
A LM-2 form is an annual report the Secretary of Labor requires unions to file and
includes, among other things, a listing of assets and liabilities, salaries of officers, and
disbursements. See AFL-CIO v. Chao,409 F.3d 377,379 & n.l (D.C. Cit. 2005).
2

Case: 4:17-cv-02381-RLW Doc. #: 37 Filed: 02/22/18 Page: 4 of 4 PagelD #: 230

legal services to the client.” Wollesen v. West Central Coop., 2018 WL 785863, *4(N.D. Ia.
Feb. 8,2018) (interim quotations omitted).
The sixth, and last, request in dispute is one asking for financial information on fifteen
various union trust funds, including some funds for unions other than Local One. The funds
named are not parties, see Fed.R.Civ.P. 34(a) (restricting requests for production of documents to
parties), and, regardless, the finances of such funds are not at issue.
For the foregoing reasons, the Court finds Defendants’ objections to the six requests to be
with merit. Plaintiffs motion to compel will be denied.
Accordingly,
IT IS HEREBY ORDERED that the motions of Plaintiff to declare 29 U.S.C. § 481(c)
unconstitutional [ECF No. 23] and to compel [ECF No. 31] are each DENIED.
Dated this /^^^clav of February 2018.

Jr,

RONNIE L. WHITE
UNITED STATES DISTRICT JUDGE

4

Case: 4:17-cv-02381-RLW Doc. #: 105 Filed: 09/23/19 Page: 1 of 1 PagelD #: 1256

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
ARTHUR J. CLEMENS, Jr.,
Plaintiff,
v.
LOCAL ONE, SERVICE EMPLOYEES
INTERNATIONAL UNION, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

No. 4:17CV2381 RLW

JUDGMENT
Pursuant to the Memorandum and Order entered this same date,
IT IS HEREBY ORDERED, ADJUDGED and DECREED that Defendants Local
One, Service Employees International Union, Tom Balanoff, Laura Garza, and Nancy Cross’s
Motion to Dismiss or in the Alternative for Summary Judgment (ECF No. 65) is GRANTED,
and Plaintiff Arthur J. Clemens, Jr.’s claims against Defendants Local One, Service Employees
International Union, Tom Balanoff, Laura Garza, and Nancy Cross are DISMISSED.
Dated thi sg^ffiday of September, 2019.

RONNIE L. WHITE
UNITED STATES DISTRICT JUDGE

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 1 of 21 PagelD #: 1235

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
ARTHUR J. CLEMENS, Jr.,

)
)
)
)
)
)

Plaintiff,
v.
LOCAL ONE, SERVICE EMPLOYEES
INTERNATIONAL UNION, et al.,
Defendants.

No. 4:17CV2381 RLW

)
)
)
)

MEMORANDUM AND ORDER
This matter is before the Court on numerous motions filed by pro se Plaintiff Arthur J.
Clemens, Jr., and Defendants Local One, Service Employees International Union (“Local One”),
Tom Balanoff, Laura Garza, and Nancy Cross (collectively referred to as “Defendants”). The
Court has carefully read and considered every motion and related memoranda and finds that
Plaintiff has failed to state any claim upon which relief can be granted. Because Defendants’
Motion to Dismiss or in the Alternative for Summary Judgment (ECF No. 65) resolves the case
in its entirety, the other motions are denied as moot.

BACKGROUND
Plaintiff Arthur J. Clemens, Jr., is employed by employers who are contracted to clean
Busch Stadium in Saint Louis, Missouri after events at the stadium. (Defs.’ Statement of
Uncontroverted Material Facts (“SUMF”) f 2, ECF No. 67)1 He is a dues-paying member of
Local One, which is a labor union representing approximately 46,000 members in the service

l

Plaintiff filed a response to Defendant’s Statement of Uncontroverted Material Facts in which
he responds to each numbered paragraph. (ECF No. 86) For the purposes of addressing
Defendants’ motion as one for summary judgment, the Court only includes facts that are in fact
undisputed by the parties.

• Case: 4:17-cv-02381-RLW Doc.#: 104 Filed: 09/23/19 Page: 2 of 21 PagelD#: 1236

industry across six contiguous states. (Id. at ff 1,7) Defendants Tom BalanofF, Laura Garza,
and Nancy Cross are agents of Defendant Local One and serve as president, treasurer, and vice
president respectively. (Id. at Tf 6)
Plaintiffs pro se Amended Complaint (ECF No. 46) asserts the following fifteen counts
against Defendants:
I.

That Local One raised monthly membership dues from $37 to $42 for the
calendar year 2016 without a valid vote in violation of the Labor-Management
Reporting and Disclosure Act (LMRDA), 29 U.S.C. § 411(a)(3)(A);

II.

That Local One raised monthly membership dues from $42 to $47 for the
calendar year 2017 through to the present without a valid vote;

III.

That Local One raised monthly membership dues from $39 to $41 for the
calendar years 2009-2011 without a valid vote;

IV.

That the vote to increase dues for calendar years 2016 and 2017 was conducted on
a date when Plaintiff and other union members employed at Busch Stadium were
unable to attend and no accommodation was made for them to vote absentee or by
representative;

V.

That other dues-paying members of Local One have suffered similar damages to
Plaintiff in 2016 and 2017, justifying class certification and appointment interim
class counsel;

VI.

That several votes be declared null and void for failure to give sufficient notice of
the relevant meetings;

VII.

That Local One’s policies violate its constitution and bylaws and have obstructed
his efforts to run for president of Local One;

-2-

• Case: 4:17-cv-02381-RLW Doc.#: 104 Filed: 09/23/19 Page: 3 of 21 PagelD #: 1237

VIII.

That Local One’s payments to its chosen law firm constitute a violation of 29
U.S.C. 481(g)’s prohibition of using dues to promote the candidacy of an
individual in any election by preventing fair elections;

IX.

That Balanoff, Garza, and Cross engaged in financial malpractice as defined in
the constitution for the international union of which Local One is apart, Service
Employees International Union (“SEIU”), which requires them to pay restitution
and Local One to be placed into receivership with a court-appointed trustee;

X.

That Local One’s policies violate SEIU’s constitution and bylaws as well as rights
guaranteed under the United States Constitution by requiring Plaintiff to obtain
over 800 signatures from dues-paying members in order to qualify to be on the
ballot for any Local-wide election;

XI.

That the increases in Plaintiffs monthly membership dues were higher than the
rate formula described in Local One’s bylaws purports to establish;

XII.

That other dues-paying members of Local One have suffered similar damages to
Plaintiff as alleged in Count XI, justifying class certification and appointment of
class counsel;

XIII.

That, incorporating his allegations in Count VI, other dues-paying members of
Local One have been denied their right to freedom of assembly as guaranteed by
the First Amendment to the United States Constitution;

XIV.

That 29 U.S.C. § 481(c) violates his freedom of assembly under the First
Amendment to the United States Constitution and the Court should declare it
unconstitutional in light of modem technological advances; and

-3-

■ Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 4 of 21 PagelD #: 1238

XV.

That 29 U.S.C. § 481(c) also violates the equal protection clause of the Fourteenth
Amendment and the Court should declare 29 U.S.C. 481(c) unconstitutional in
light of modem technological advances.

The Court has already ruled on numerous motions filed in this case by both parties. For
example, the Court denied Plaintiffs motion for default judgment after Defendants’ initial
twelve-day delay in filing their answer to the original complaint (ECF No. 22); granted
Plaintiffs Motion for Leave to File Constitutional Challenge, which the Court construed as a
Motion for Leave to File an Amended Complaint (ECF No. 45); denied Plaintiffs Motion to
Disqualify Defense Counsel (ECF No. 92); and struck a filing by Plaintiff that wrongfully
accused defense counsel of witness tampering (ECF No. 92).
Motions pending before the Court now include the following: motions to compel filed by
Plaintiff (ECF Nos. 58, 59, & 60); Defendants’ Motion to Dismiss or in the Alternative for
Summary Judgment (ECF No. 65); Plaintiffs Rule 23 Motion for Class Action Status (ECF No.
69); Plaintiffs eleven separate Motions for Summary Judgment directed at Counts I, II, III, IV,
V, VI, VII, VIII, IX, XI, and XII respectively (ECF Nos. 71-81); Plaintiffs Motion to Depose
Rebuttal Witness (ECF No. 85); Plaintiffs Motion for Reconsideration of Denial of Plaintiff s
Motion to Enjoin and Restrain Garza from the Use of Local One, SEIU Treasury Money to Pay
Legal Fees to Defendant’s chosen law firm and counsel (ECF No. 94); Plaintiffs Motion to File
out of Time Additional Exhibits and Pleadings (ECF No. 97); Plaintiffs Motion to Expedite
Proceedings (ECF No. 100) and Defendant’s Motion for Additional Time to Respond thereto
(ECF No. 101).
As explained fully below, the Court finds that certain claims in the Amended Complaint
should be dismissed pursuant to Rule 12(b)(6) and that Defendants are entitled to summary

-4-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 5 of 21 PagelD #: 1239

judgment on the remaining claims. Because Defendants’ Motion to Dismiss or in the Alternative
for Summary Judgment (ECF No. 65) resolves the case in its entirety, the other motions are
denied as moot and are not analyzed in this Memorandum and Order.2
MOTION TO DISMISS
I. Legal Standard
A complaint must be dismissed under Federal Rule of Civil Procedure 12(b)(6) for failure
to state a claim upon which relief can be granted if the complaint fails to plead “enough facts to
state a claim to relief that is plausible on its face.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570 (2007). “Factual allegations must be enough to raise a right to relief above the speculative
level....” Id. at 555. Courts must liberally construe the complaint in the light most favorable
to the plaintiff and accept the factual allegations as true. See Schaafv. Residential Funding
Corp., 517 F.3d 544, 549 (8th Cir. 2008) (stating that in a motion to dismiss, courts accept as
true all factual allegations in the complaint); Eckert v. Titan Tire Corp., 514 F.3d 801, 806 (8th
Cir. 2008) (explaining that courts should liberally construe the complaint in the light most
favorable to the plaintiff).
However, “[wjhere the allegations show on the face of the complaint there is some
insuperable bar to relief, dismissal under Rule 12(b)(6) is appropriate.” Benton v. Merrill Lynch
& Co., 524 F.3d 866, 870 (8th Cir. 2008) (citation omitted). Courts “are not bound to accept as

2 The Court notes Plaintiff’s fifteen separately filed Motions for Summary Judgment do not
comport with this district’s local rules. See E.D.Mo. L.R. 4.01(E) (“A memorandum in support
of a motion for summary judgment shall have attached a statement of uncontroverted material
facts, set forth in a separately numbered paragraph for each fact, indicating whether each fact is
established by the record, and, if so, the appropriate citations.”). Plaintiffs failure to comply
with Local Rule 4.01(E) by including a statement of uncontroverted material facts would warrant
dismissal of his eleven separate Motions for Summary Judgment (ECF Nos. 71-81) without
prejudice. See, e.g., Mecklenburg Farm, Inc. v. Anheuser-Busch, 7nc., No. 4:07-CV-1719 CAS,
2008 WL 2518561, at *2 (E.D. Mo. June 19,2008).
-5-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 6 of 21 PagelD #: 1240

true a legal conclusion couched as a factual allegation.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Twombly, 550 U.S. at 555). When considering a motion to dismiss, a court can
“begin by identifying pleadings that, because they are no more than conclusions, are not entitled
to the assumption of truth.” Id. at 679. Legal conclusions must be supported by factual
allegations to survive a motion to dismiss. Id.
II. Plaintiffs claims challenging past elections
Defendants argue Plaintiffs claims purporting to challenge the validity of past elections
of Local One officers must be dismissed because the Court lacks jurisdiction over private actions
by individual union members making such claims.
Title IV of the [LMRDA] establishes a set of substantive rules governing union
elections,... and it provides a comprehensive procedure for enforcing those rules
.... Any union member who alleges a violation may initiate the enforcement
procedure. He must first exhaust any internal remedies available under the
constitution and bylaws of his union. Then he may file a complaint with the
Secretary of Labor, who ‘shall investigate’ the complaint. Finally, if the
Secretary finds probable cause to believe a violation has occurred, he ‘shall . . .
bring a civil action against the labor organization’ in federal district court, to set
aside the election if it has already been held, and to direct and supervise a new
election. With respect to elections not yet conducted, the statute provides that
existing rights and remedies apart from the statute are not affected. But with
respect to an election already conducted, ‘(t)he remedy provided by this
subchapter... shall be exclusive.’
Trbovich v. United Mine Workers of Am., 404 U.S. 528, 531 (1972). The Supreme Court has
held that the “exclusive” remedy for alleged violations of Title IV is a lawsuit by the Secretary of
Labor and § 483 “prohibits union members from initiating a private suit to set aside an election.”
Trbovich, 404 U.S. at 531 (citing Calhoon v. Harvey, 379 U.S. 134, 140 (1964)); 29 U.S.C. §
483 (“The remedy provided by this subchapter for challenging an election already conducted
shall be exclusive.”).

-6-

•

Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 7 of 21 PagelD #: 1241

Plaintiff brings his claims related to past elections pursuant to the “Bill of Rights”
outlined in Title I of the LMRDA, 29 U.S.C. § 411. However, the precedent is clear that “the
exclusivity provision included in ... Title IV plainly bars Title I relief when an individual union
member challenges the validity of an election that has already been completed.” Local No. 82,
Furniture & Piano Moving, Furniture Store Drivers, Helpers, Warehousemen & Packers v.
Crowley, 467 U.S. 526, 541 (1984). Assuming arguendo that Plaintiff exhausted the internal
remedies available under SEIU’s constitution and bylaws related to challenging past elections as
he so pleads3 (Am. Compl. at 46, ECF No. 46), the Court finds that Plaintiff cannot bring a
private action because the exclusivity provision in § 483. Accordingly, Plaintiff’s claims related
to the validity of past elections contained in Counts VII, VIII, X, XIV, XV are dismissed because
the Secretary of Labor is the only entity that can enforce such claims against labor unions under
the LMRDA.
III. Plaintiff's constitutional claims against Defendants
In addition to the claims under the LMRDA, Plaintiff brings certain claims pursuant to 42
U.S.C. § 1983 for violations of his rights guaranteed by the First and Fourteenth Amendments.
42 U.S.C. § 1983 was designed to provide a “broad remedy for violations of federally protected
civil rights.” Monellv. Dep’t ofSoc. Servs., 436 U.S. 658, 685 (1978). Section 1983 provides
no substantive rights; it merely provides a remedy for violations of all “rights, privileges, or
immunities secured by the Constitution and laws [of the United States].” 42 U.S.C. § 1983; see
3 In deciding a motion to dismiss under Rule 12(b)(6), a court assumes all facts in the complaint
to be true and construes all reasonable inferences most favorably to the complainant. U.S. ex rel.
Raynor v. Nat'I Rural Utilities Co-op. Fin., Corp., 690 F.3d 951, 955 (8th Cir. 2012); Eckert v.
Titan Tire Corp., 514 F.3d 801, 806 (8th Cir. 2008). Consequently, for the purpose of
determining whether Plaintiffs claims related to past elections survives a Rule 12(b)(6) motion,
the Court took Plaintiffs pleading at its word that he exhausted internal union remedies. As
explained elsewhere in the Memorandum and Order, the Court finds Plaintiffs failure to exhaust
internal union remedies defeats several other claims under the summary judgment standard.
-7-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 8 of 21 PagelD #: 1242

also Albright v. Oliver, 510 U.S. 266,271 (1994) (section 1983 “merely provides a method for
vindicating federal rights elsewhere conferred”). To state a claim under § 1983, a plaintiff must
establish: (1) the violation of a right secured by the Constitution or laws of the United States, and
(2) that the alleged deprivation of that right was committed by a person acting under color of
state law. West v. Atkins, 487 U.S. 42, 48 (1988).
Defendants argue Plaintiffs constitutional claims under § 1983 must be dismissed
because Defendants are private actors who were not acting under color of state law. “Private
actors may incur section 1983 liability only if they are willing participants in a joint action with
public servants acting under color of state law.”4 Johnson v. Outboard Marine Corp., 172 F.3d
531,536 (8th Cir. 1999). Defendants are clearly private actors and Plaintiff has not alleged facts
necessary to hold them liable for any alleged constitution violations pursuant to § 1983.5

4 In Plaintiffs response to Defendants’ Motion to Dismiss or in the Alternative for Summary
Judgment, he claims that “the Labor Department, SEID Local One, and SEID International...
are acting under the color of Federal Law to violate his previously stated Constitution Rights.”
(ECF No. 87, at 2-3) He has not named the United States Department of Labor as a defendant in
this case. If he had named the Department of Labor as a defendant, the claim would fail because
of sovereign immunity and because any individually named defendant at the Department of
Labor would not be acting under state law. Further, he has not pleaded sufficient facts to
establish liability for Defendants as private actors to be liable in conjunction with any act by any
government entity. “[A] plaintiff seeking to hold a private party liable under § 1983 must allege,
at the very least, that there was a mutual understanding, or a meeting of the minds, between the
private party and the state actor.” Mershon v. Beasley, 994 F.2d 449,451 (8th Cir. 1993). The
facts alleged with respect to a conspiracy must be specific and may not be merely conclusory.
See White v. Walsh, 649 F.2d 560, 561 (8th Cir. 1981). Plaintiff has failed to do so here.
5 Plaintiff makes conclusory claims in the Amended Complaint that Defendants acted “under the
color of the authority of the Local One, Service Employees International Union Constitution and
Bylaws, the Service Employees International Union Constitution and Bylaws, Department of
Labor Office of Labor Management Standards Directives, and 29 USC 481(c).” (ECF No. 46 at
5-6,18) This allegation is insufficient to establish Defendants acted under the color of state law.
Section 1983 specifically imposes liability on “[ejvery person who, under color of any statute,
ordinance, regulation, custom, or usage, ofany State or Territory or the District of Columbia”
deprives someone of “any rights, privileges, or immunities secured by the Constitution and
laws.” (Emphasis added). This language means that only state actors, rather than federal actors,
-8-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 9 of 21 PagelD #: 1243

In addition to failing to identify a party that could be liable for alleged constitutional
violations, Plaintiff has further failed to plead necessary facts to support his claims. Despite
alleging Defendants violated his rights guaranteed by the equal protection clause of the
Fourteenth Amendment and freedoms of speech and assembly under the First Amendment, he
does not specify a protected class to which he is a member or established government action in
suppressing his otherwise protected speech. See Nolan v. Thompson, 521 F.3d 983, 989 (8th Cir.
2008) (“To state a claim under the Equal Protection Clause, a § 1983 plaintiff must allege that a
state actor intentionally discriminated against the plaintiff because of membership in a protected
class.”). Plaintiff seems to suggest that being a “qualified candidate for Local One, SEIU office”
is a protected class for purposes of equal protection analysis. (Am. Compl. at 19, ECF No. 46)
He has presented no authority for this tenuous interpretation of constitutional protection.
Consequently, Plaintiffs constitutional claims in Counts VII, X, and XIII are also dismissed for
failure to state a claim upon which relief can be granted.
IV. Plaintiffs claim challenging the constitutional validity of 29 U.S.C. § 481(c)
In Counts XIV and XV, Plaintiff challenges the constitutional validity of 29 U.S.C. §
481(c). That subsection of Title IV, § 401 of the LMRDA provides:
Every bona fide candidate shall have the right, once within 30 days prior to an
election of a labor organization in which he is a candidate, to inspect a list
containing the names and last known addresses of all members of the labor
organization who are subject to a collective bargaining agreement requiring
membership therein as a condition of employment, which list shall be maintained
and kept at the principal office of such labor organization by a designated official
thereof.
29 U.S.C. § 481(c). According to Plaintiff, § 481(c) violates his freedom of assembly under the
First Amendment by limiting his ability to access a list of all Local One members unless he
can be held liable under § 1983. The statutory authority Plaintiff seems rely for his claim that
Defendants should be liable under § 1983 are internal, private union documents and federal law.
-9-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 10 of 21 PagelD #: 1244

travels to the main office in Chicago. He argues such a burden is unreasonable as it prevents him
from being able to contact enough members in order to acquire the requisite number of
signatures to run for president of Local One.
Section 101(a)(2) of the LMRDA’s Bill of Rights provides:
Every member of any labor organization shall have the right to meet and assemble
freely with other members; and to express any views, arguments, or opinions; and
to express at meetings of the labor organization his views, upon candidates in an
election of the labor organization or upon any business properly before the
meeting, subject to the organization's established and reasonable rules pertaining
to the conduct of meetings: Provided, That nothing herein shall be construed to
impair the right of a labor organization to adopt and enforce reasonable rules as to
the responsibility of every member toward the organization as an institution and
to his refraining from conduct that would interfere with its performance of its
legal or contractual obligations.
29 U.S.C. § 411(a)(2). The Eighth Circuit has noted that § 101(a)(2) of the LMRDA “was
patterned after the First Amendment.” Hylla v. Transportation Commc ’ns Int 7 Union, 536 F.3d
911, 916 (8th Cir. 2008) (quoting Reed v. United Transp. Union, 488 U.S. 319, 326 (1989)).
“However, as the [Supreme] Court observed, the rights under § 101(a)(2) are subject to
reasonable union rules that may restrict such rights, and thus, § 101(a)(2) is not strictly parallel
with the First Amendment even though § 101(a)(2) was patterned after it.” Id. at 916-17 (citing
United Steelworkers v. Sadlowski, 457 U.S. 102, 111 (1982)).
Defendants argue the right to freedom of assembly protected under § 101(a)(2) of the
LMRDA merely “safeguards the right to meet and the right to speak freely outside of union
membership meetings” and the “right to speak freely at union meetings.” See Grant v. Chi.
Truck Drivers, Helpers & Warehouse Workers Union, 806 F.2d 114, 117 (7th Cir. 1986).
Defendants contend Local One’s rules regarding maintenance and access to the list of the
members do not violate Plaintiffs freedom of assembly became Plaintiffhas no substantive right
to review the list of attendees of membership meetings and they do not prevent any office

-10-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 11 of 21 PagelD #: 1245

candidate from traveling to the main office to access the list in accordance with § 401 of the
LMRDA.
The Court agrees that Plaintiff has failed to establish that Local One’s rules regarding
who can view the list of members and when are unreasonable as to violate his freedom of
assembly. Plaintiff essentially makes a policy argument that modem technological
advancements justify the Court declaring § 481(c) unconstitutional: “The reality here is that
Local One is not a Local at all, but it is a Regional, which was not envisioned by the Congress in
1959, when they passed 29 USC 411,29 USC 481(c), and other statutes pertinent to this case.
We do have an internet now, and it can be used to make union elections much more fair than
they are now with the assistance of the Court.'” (ECF No. 87, at 8) (emphasis added) Such a
policy argument, however, is outside the scope of the Court’s jurisdiction and is more properly
suited for Congress. Accordingly, Count XIV is dismissed.
Plaintiff further argues § 481(c) violates his rights under the Fourteenth Amendment
because he is a qualified candidate for union office. As noted above, Plaintiff has not offered
authority for his proposition that being a qualified candidate for a local union office is a
protected class for the purpose of equal protection analysis. Consequently, Counts XV is also
dismissed for failure to state a claim.
SUMMARY JUDGMENT
I. Legal Standard
The Court may grant a motion for summary judgment if “the pleadings, depositions,
answers to interrogatories, and admissions on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and that the moving party is entitled to a
judgment as a matter of law.” Celotex Corp. v. Citrate, All U.S. 317, 322 (1986); Fed. R. Civ.

-11 -

• Case: 4:17-cv-02381-RLW Doc.#: 104 Filed: 09/23/19 Page: 12 of 21 PagelD #: 1246

P. 56; Torgerson v. City ofRochester, 643 F.3d 1031, 1042 (8th Cir. 2011). The substantive law
determines which facts are critical and which are irrelevant. Anderson v. Liberty Lobby, Inc.,
All U.S. 242,248 (1986). Only disputes over facts that might affect the outcome will properly
preclude summary judgment. Id. Summary judgment is not proper if the evidence is such that a
reasonable jury could return a verdict for the nonmoving party. Id.
A moving party always bears the burden of informing the Court of the basis of its motion.
Celotex Corp., All U.S. at 323. Once the moving party discharges this burden, the nonmoving
party must set forth specific facts demonstrating that there is a dispute as to a genuine issue of
material fact, not the “mere existence of some alleged factual dispute.” Fed. R. Civ. P. 56(e);
Anderson, All U.S. at 248. The nonmoving party may not rest upon mere allegations or denials
of his pleading. Id.
In passing on a motion for summary judgment, the Court must view the facts in the light
most favorable to the nonmoving party, and all justifiable inferences are to be drawn in his favor.
Celotex Corp., All U.S. at 331. The Court’s function is not to weigh the evidence but to
determine whether there is a genuine issue for trial. Anderson, All U.S. at 249. “Credibility
determinations, the weighing of the evidence, and the drawing of legitimate inferences from the
facts are jury functions, not those of a judge.” Torgerson, 643 F.3d at 1042 (quoting Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133,150 (2000)).
II. Plaintiffs claims regarding increases in union membership dues
Plaintiffs claims challenging the validity of certain votes that increased membership
dues for members of Local One are based largely on Defendants’ alleged failure to provide
proper notice to members of the vote to increase dues and failure to provide accommodations to
members who would have difficulty attending the meeting during which the vote was to take

-12-

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 13 of 21 PagelD #: 1247

place. Defendants argue they are entitled to summary judgment because Plaintiff failed to
exhaust available internal union remedies before initiating this action in federal court.
“The LMRDA permits a union to institute reasonable exhaustion requirements.”6 Aleem
v. Int’l Union ofAm. Fed’n ofState, Cty. & Mun. Employees, 52 F.3d 324 (6th Cir. 1995).
Section 101(a)(4) provides that a union member bringing a suit for vindication of rights under
the LMRDA may be required to exhaust reasonable hearing procedures within the organization.
29 U.S.C. § 411(a)(4). The exhaustion provision “was designed to further LMRDA’s purpose of
achieving union democracy by giving unions a reasonable opportunity to correct abuses and by
encouraging them to set up machinery for the prompt and fair disposition and review of
disputes.” Simmons v. Avisco, Local 713, Textile Workers Union, 350 F.2d 1012,1016 (4th Cir.
1965); see also Runyan v. United Brotherhood of Carpenters, 566 F. Supp. 600, 606 (D. Colo.
1983) (“The exhaustion remedy requirement is premised on the purpose of giving the labor
organization first opportunity to correct abuses and resolve disputes before resort[ing] to outside
remedies.”) (citing NLRB v. Indus. Union ofMarine & Shipbuilding Workers ofAm., AFL-CIO,
Local 22,391 U.S. 418, 88 (1968)).
The LMRDA, however, “does not make the exhaustion of hearing procedures mandatory
in all cases, but allows the courts in their discretion to determine whether pursuit of such
remedies is required.” Simmons, 350 F.2d at 1016 (citing Detroy v. American Guild of Variety
Artists, 286 F.2d 75, 78-79 (2d Cir. 1961)); Stevens v. Northwest Ind. Dist. Council, United Bhd.
ofCarpenters, 20 F.3d 720, 731, n.28 (7th Cir. 1994) (nothing that courts have discretion

6 This paragraph and the following paragraph are incorporated, with minor alterations, from
Holschen v. International Union ofPainters & Allied Trades/Painters Dist. Council No. 2, No.
4:07CV01455 JCH, 2008 WL 4722713, at *3 (E.D. Mo. Oct. 23,2008), affdsub nom. Holschen
v. International Union ofPainters & Allied Trades/Painters Dist. Council #2, 598 F.3d 454 (8th
Cir. 2010).
-13-

■ Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 14 of 21 PagelD #: 1248

regarding whether to excuse a failure to exhaust before bringing an LMRDA suit); Foy v.
Norfolk & W.R. Co., 377 F.2d 243, 246 (4th Cir. 1967). “Exhaustion has not been demanded
when plaintiffs will suffer irreparable harm in the exercise of their LMRDA rights.”
Amalgamated Clothing Workers Rank & File Comm. v. Amalgamated Clothing Workers,
Philadelphia Joint Bd, 473 F.2d 1303,1308 (3d Cir. 1973). Furthermore, “in situations where
fundamental rights are at issue, courts are more inclined to exercise their discretion and allow
cases to proceed even though the claimant has not exhausted intra-union procedures.” Darnall v.
Dalluge, No. 08-2057,2008 WL 2874691, at *6 (C.D. Ill. July 23,2008).
Here, Article XXII of Local One’s Constitution and Bylaws provides:
Section 1. Subject to the provisions of Section 2, the President shall be
empowered to decide disputes between members relating to their work or their
responsibilities to each other or to the Local Union and to decide the claim of
members concerning the adjustment of their grievances against employers or
Union Representatives. The decision of the President shall be final and binding in
such matters, except that a member who is not satisfied with such decision shall
have the right to appeal as provided in Section 2 hereof. It is expressly
understood that, as a condition of membership, each member agrees to be bound
by the provisions ofSections 1 and 2 of this Article and to exhaust all procedures
and remedies provided therein and to refrain from the institution or prosecution
of any action in any court, tribunal or other agency until the procedures and
remedies therein are fully exhausted. Any member who brings any action in
violation of this provision may, in addition to other penalties, be required to
reimburse the Local Union or its officers for the costs’ and attorneys [sic] fees
incurred in defending such action.
Section 2. Any member who has a dispute as defined in Section 1 shall, within
ten (10) days from the date such dispute arises, appeal in writing to the President
by certified mail. If such member is not satisfied with the decision of the
President, or if the President has not rendered a decision within fifteen (15) days
following receipt of the appeal, the member may appeal his or her case to the
Appeals Committee of the Executive Board. The Appeals Committee shall
consist of five (5) Executive Board Members assigned by the President. Any such
appeal to the Appeals Committee of the Executive Board shall be filed in writing
by certified mail with the Secretary-Treasurer. The decision of the Appeals
Committee shall be due or rendered not later than thirty (30) days after receipt of
the appeal. The decision of the Appeals Committee of the Executive Board shall

-14-

;

■ Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 15 of 21 PagelD #: 1249

be subject only to such further appeal as may be permissible under the
Constitution and Bylaw of the International Union.
(ECF No. 66-1, at 13) (emphasis added)
Article XVII of SEIU’s 2016 Constitution and Bylaws provides:
PREAMBLE. In order to ensure members’ protection from the filing of
frivolous charges, the following procedures shall apply:
Section 1. Local Unions, their officers or members, and officers of any affiliated
body, and officers of the International Union, as the case may be, may be charged
with:
(1) Violation of any specific provision of this Constitution or of the Constitution
and Bylaws of the Local Union;
(5) Financial malpractice;
(8) Violation of democratically and lawfully established rules, regulations,
policies or practices of the International Union or of the Local Union, including
democratically and lawfully established rules, regulations, policies and practices
of the International Union’s Industry Divisions, subject to their approval by the
International Executive Board.
(ECF No. 66-2, at 36-37) The sections that follow outline the procedure by which a union
member may file charges against any member or officer of a local union, bring such charges to
trial before the local union’s executive board, and appeal to the International Executive Board.
(Id. at 37-39) Article XVII further provides:
Section 8. Subject to the provisions of applicable statutes, every Local Union or
member or officer thereof or officer of the International Union against whom
charges have been preferred and disciplinary action taken as a result thereof or
who claims to be aggrieved as a result of adverse rulings or decisions rendered,
agrees, as a condition of membership or affiliation and the continuation of
membership or affiliation, to exhaust all remedies providedfor in the Constitution
and Bylaws of the International Union and the Local Union and further agrees
not to file or prosecute any action in any court, tribunal or other agency until
those remedies have been exhausted.
Section 9. The SEIU Member Bill of Rights and Responsibilities in the Union
shall be enforced exclusively through the procedures provided in this Article and
any decision rendered pursuant to the procedures provided for herein, including

-15-

Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 16 of 21 PagelD #: 1250

any appeals, shall be final and binding on all parties and not subject to judicial
review.
(ECF No. 66-2, at 39-40) (emphasis added)
Plaintiff alleged in the Amended Complaint that he “has exhausted all remedies within
Defendant Local One, SERJ in order to try to recover said excessive dues charges, with no
results.” (Am. Compl. f 5, ECF No. 46) His testimony during his deposition, however, paints a
different picture. Plaintiff testified that he emailed Garza in May 2017, asking for a refund in the
form of the difference between the 2015 dues amount ($37) and 2016 and 2017 increased dues
($42 and $47 respectively). (Dep. of Arthur Clemens at 24:10-21, ECF No. 66-4; Ex. O, ECF
No. 1-20) Garza replied that Plaintiffs request for a refund was denied because the increase in
dues was the result of a valid vote of Local One members on September 8,2012. (Dep. of
Arthur Clemens at 24:22-25, 25:1-2, ECF No. 66-4; Ex. O, ECF No. 1-20) Plaintiff then
testified he emailed Balanoff to appeal Garza’s decision7; however, Plaintiff never received a
reply from Balanoff. (Dep. of Arthur Clemens at 25:2-4, ECF No. 66-4) When asked by
defense counsel if he had done anything further to exhaust his remedies concerning his complaint
about the increased union dues - which form the basis of Counts I, II, and III - Plaintiff
responded “No, that’s it.”8 (Id. at 25:5-24)

7 The Court notes Plaintiffs email to Balanoff was seemingly not in compliance with Local
One’s prescribed procedure for appealing disputes to a local union’s president, which mandates
such an appeal be sent by certified mail. (ECF No. 66-1, at 13) Defendants do not press this
deviation. If they had objected on such grounds, the Court would have excused Plaintiffs
noncompliance as nonmaterial and non-prejudicial.
8 Plaintiff testified about another instance in 2012 when he and another person went to the Office
of Labor-Management Standards of the United States Department of Labor to file a complaint.
(Dep. of Arthur Clemens at 27:9-25, ECF No. 66-4) Plaintiff, however, repeatedly asserted that
complaint with the Department of Labor is irrelevant to this action. (Id. at 27:25, 37:17-20, ECF
No. 66-4)
-16-

l

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 17 of 21 PagelD #: 1251

Later in his deposition when discussing Count VIII, Plaintiff admitted he was aware of
the appeals process but chose to circumvent it.
Q. After you got a ruling from the Local One Executive Board, did you
take any other steps to appeal their ruling about your complaint about the election
of September 2017?
A. Well, I did not appeal it back to the Local One Executive Board even
though I think there’s some clause in the Constitution that says I’m supposed to
do that. I thought it was ridiculous to appeal back to the same people that ruled
against me the first time.
Q. Did you ever appeal to the SEIU International?
A. I have — Let me think. Well, I have found this — No, I didn’t because
I filed this lawsuit on September the 8th, which is one day before the election.
This lawsuit is claiming that, if you read my amended complaint, it basically says
that the International Union’s Constitution, the Local One’s Constitution and the
Department of Labor directives and the federal law all are used for the purpose of
denying me equal protection of the law and denying me and all other members
freedom of assembly. So it was irrelevant to try to appeal any further to the
International.
Q. So you didn’t?
A. No.
(Dep. of Arthur Clemens at 44:19-25,45:1-19, ECF No. 66-4)
The Court finds Plaintiff failed to exhaust internal union remedies before filing this
lawsuit as required by Local One’s bylaws, SEIU’s constitution, and § 101(a)(4) of the LMRDA,
29 U.S.C. § 411(a)(4). He admitted to being aware of the requirement to appeal any
unsatisfactory decision by the Local One Executive Board to SEIU but elected to file this lawsuit
instead. To the extent Plaintiff suggests that abiding by the prescribed appeal processes outlined
in Local One’s bylaws and SEIU’s constitution would be futile, he has failed to present any
evidence of personal animus from Defendants. See Winter v. Local Union No. 639, Affiliated
With Int’IBhd. of Teamsters, 569 F.2d 146, 149 (D.C. Cir. 1977) (requiring a union member

-17-

■ Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 18 of 21 PagelD #: 1252

seeking to avoid adverse summary judgment based on failure to exhaust internal union remedies
“make a specific and convincing showing of union animus” to demonstrate futility). Further, the
Court declines to excuse his admitted failure because he has not presented evidence that he will
be subjected to irreparable harm. Cf. Holschen v. Int’l Union ofPainters & Allied
Trades/Painters Dist. Council No. 2, No. 4:07CV01455 JCH, 2008 WL 4722713, at *3 (E.D.
Mo. Oct. 23, 2008) (exercising judicial discretion to excuse a union member’s failure to exhaust
internal remedies after he was expelled from the union and prohibited from pursuing internal
appeals process unless he paid a $15,000 fine), aff’d sub nom. Holschen v. Int 7 Union of
Painters & Allied Trades/Painters Dist. Council #2, 598 F.3d 454 (8th Cir. 2010).
In addition to not exhausting internal union remedies, Plaintiffs claims against
Defendants fail as a matter of law because he has not demonstrated his rights under the LMRDA
were violated. The LMRDA prohibits the increase of membership dues by a local labor
organization unless authorized “by majority vote by secret ballot of the members in good
standing voting at a general or special membership meeting, after reasonable notice of the
intention to vote upon such question.” 29 U.S.C. 411(a)(3)(A) (emphasis added). The Union’s
bylaws also require “reasonable notice” of meetings. (ECF No. 66-1, at 12 & 14) “The test to
determine reasonableness under § 411(a)(3)(A) is whether the notice ‘descends to particulars,
and the ordinary union member, attentive to the interests he has at stake in such a situation, is, in
some manner, thereby made aware of the specific issue to be voted upon a reasonable time in
advance of the meeting.’” Myers v. Hoisting & Portable Local 513, 653 F. Supp. 500, 508 (E.D.
Mo. 1987) (quoting Gates v. Dalton, 67 F.R.D. 621,628 (E.D. N.Y. 1975)). Neither §
411(a)(3)(A) nor the relevant bylaws in this case require individual notice. See Myers, 653 F.
Supp. at 508.

-18-

■

• Case: 4:17-cv-02381-RLW Doc. #: 104 Filed: 09/23/19 Page: 19 of 21 PagelD #: 1253

Addressing the September 8,2012 vote, Plaintiff argues he did not receive “official
notice” of the meeting. During his deposition, however, he admitted to knowing about the
meeting in advance but complained that it was at an inconvenient time.

■:

:

A. All right. First of all, we worked on the night the people at Busch Stadium
worked on the night before the election and we had to work the night after, the
night of the election for a Milwaukee game. We were playing Milwaukee, both
games, and they didn’t give us any kind of a chance to, they didn’t give us any
kind of a chance to vote absentee or, or they didn’t send anybody down to our
break room and give us a chance to vote. It’s like we didn’t exist.
i

Q. So the vote was taken, an in person vote at the union hall...
A. Correct.
Q. ... on a night that you would to work?
A. Right.
Q. And so you couldn’t attend because of the fact that you had to work while the
meeting was scheduled?
A. Well, not exactly right when the meeting was scheduled, but we had — I mean,
I worked until like probably seven, eight in the morning and the meeting was at
eleven and there was not one single person where I worked that had a reasonable
opportunity to vote for that election.
Q. So the meeting didn’t conflict with your work, your position is that because
you were tired or otherwise couldn’t go, it was invalid?
A. Yes, because they could have given us an opportunity to vote absentee, and
they didn’t.
Q. Okay, no absentee ballot. Anything else about that election that you think
makes it invalid?
A. Right, no notice. I didn 7 get a notice. Nobody I worked with got a notice of
the election. I heard about the, I heard about the election but I didn 7 receive an
official notice of the election.
(Dep. of Arthur Clemens at 20:4-25, 21:1-13, ECF No. 66-4) (emphasis added)

-19-

;

■ Case: 4:17-cv-02381-RLW Doc.#: 104 Filed: 09/23/19 Page: 20 of 21 PagelD #: 1254

Defendants maintain notice was sent via regular mail. (AfF. of Nancy Cross

21-23),

ECF No. 66-3) Regardless of whether Plaintiff actually received such notice via mail, he admits
he had knowledge of the September 8,2012 vote but believes he should have been afforded the
opportunity to participate via absentee ballot. He fails to cite any Local One bylaw, SEIU
constitutional provision, statute, or case law requiring unions to permit members to vote via
absentee ballot. Plaintiff plainly admits he had knowledge of the September 8,2012 vote and
was not working at the time of the vote as his shift ended by 8:00 a.m. and the meeting began at
11:00 a.m. at the union hall located less than eight miles away from his place of work. (Defs.’
SUMF U 19, ECF No. 67) The choice between (1) attending a membership vote several hours
after his shift and eight miles away from his place of work or (2) not attending was not “so
coercive as to be a ‘substantial burden on the right to vote.’” Dobson v. Chicago & Northeast HI.
Dist. United Bhd. of Carpenters, 707 F. Supp. 348, 352 (N.D. Ill. 1989) (finding that scheduling
a vote on a Sunday and not providing absentee ballots was reasonable even though some
members who chose to vote that day were inconvenienced); see also McGinnis v. Local 710, 774
F.2d 196,201-03 (7th Cir. 1986) (holding that a union violated the LMRDA by requiring inperson voting and not providing for either absentee ballots by mail or regional meetings for the
approximately 18% of members who lived more than 150 miles from the union hall).
Because of the above analysis, Defendants are entitled to summary judgment on Counts I,
II, III, IV, V, VI, and XII.
III. Plaintiff’s claim against Balanoff, Garza, and Cross for alleged financial malpractice
Lastly, the Court finds Balanoff, Garza, and Cross are entitled to summary judgment on
Plaintiffs claim for financial malpractice because he failed to exhaust internal union remedies.
There is no statutory provision or definition of financial malpractice. Rather, financial

-20-

■ Case: 4:17-cv-02381-RLW Doc.#: 104 Filed: 09/23/19 Page: 21 of 21 PagelD #: 1255

malpractice is one of the enumerated charges with which a local union, officer, or member may
be charged according to SIEU’s Constitution and Bylaws. (ECF No. 66-2, at 36) According to
Plaintiffs testimony in his deposition, he filed a complaint related to alleged financial
malpractice with the Department of Labor in 2017.9 (Dep. of Arthur Clemens at 37:4-20, ECF
No. 66-4) By first filing a complaint with the Department of Justice, Plaintiff skipped over the
process established by Local One’s bylaws and SEIU’s constitution. Because Plaintiff failed to
utilize union procedures for making this claim against Balanoff, Garza, and Cross before filing
this action, the Court grants summary judgment in favor of the individual defendants on Count
IX.
Accordingly,
IT IS HEREBY ORDERED that Defendants’ Motion to Dismiss or in the Alternative
for Summary Judgment (ECF No. 65) is GRANTED. Counts VII, VIII, X, XIII, XIV, and XV
are DISMISSED pursuant to Rule 12(b)(6) for failure to state a claim upon which relief can be
granted and the Court GRANTS summary judgment in favor of Defendants on Counts I, II, III,
IV, V, VI, IX, XI, XII as there are no genuine issues as to any material facts related to those
claims and Defendants are entitled to judgment as a matter of law pursuant to Rule 56.
A separate Judgment accompanies this Memorandum and Order.
IT IS FURTHER ORDERED that all other pending motions are DENIED as moot,
Dated tlus^^^fay of September, 2019.

ROtfNIE L. WHITE
UNITED STATES DISTRICT JUDGE

9 As explained previously, Plaintiff argues “whatever [he] did with the [Department of Labor] is
irrelevant to this lawsuit.” (Dep. of Arthur Clemens at 37:17-20, ECF No. 66-4)
-21 -

I

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 1 of 6 PagelD #: 1279

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
ARTHUR J. CLEMENS, Jr.,
Plaintiff,
v.
LOCAL ONE, SERVICE EMPLOYEES
INTERNATIONAL UNION, et al„
Defendants.

)
)
)
)
)
)
)
)
)
)

No. 4:17CV2381 RLW

MEMORANDUM AND ORDER
This matter is before the Court on three separate motions for reconsideration filed by pro
se Plaintiff Arthur J. Clemens, Jr., related to the Court’s September 23, 2019 Judgment (ECF
Nos. 106,107, & 108) and a memorandum brief in support thereof (ECF No. 109). Defendants
Local One, Service Employees International Union (“Local One”), Tom Balanoff, Laura Garza,
and Nancy Cross (collectively referred to as “Defendants”) oppose the motions. Plaintiff has
also filed a memorandum for clerk, which the Court construes as a motion to expedite ruling.
(ECF No. 113) After careful review, the Court grants Plaintiffs motion to expedite and denies
his three motions for reconsideration.
LEGAL STANDARD
A “motion to reconsider” is not explicitly contemplated by the Federal Rules of Civil
Procedure but can be addressed as arising under Rule 59(e) or 60(b). Elder-Keep v. Aksamit, 460
F.3d 979, 984 (8th Cir. 2006); Broadway v. Norris, 193 F.3d 987, 989 (8th Cir. 1999); see also
Harris v. United States, No. 4:18-CV-l 546-JAR, 2018 WL 6305593, at *1 (E.D. Mo. Dec. 3,
2018) (motion to reconsider “can be considered the functional equivalent of a motion under
either Rule 59(e) or 60(b)”). Here, Plaintiffs three separate motions specifically invoke Rule 60

F

.

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 2 of 6 PagelD #: 1280

rather than 59(e).1 Rule 60(b) allows a court to “relieve a party from a final judgment for, among
other reasons, mistake, inadvertence, surprise, or excusable neglect.” MIF Realty L.P. v.
Rochester Assocs., 92 F.3d 752, 755 (8th Cir. 1996). Rule 60(b) provides for “extraordinary
relief which may be granted only upon an adequate showing of exceptional circumstances.” US.
Xpress Enters., Inc. v. J.B. Hunt Transp., Inc., 320 F.3d 809, 815 (8th Cir. 2003).
DISCUSSION
As set forth in the Court’s Memorandum and Order of September 23,2019 (ECF No.
104), Plaintiff Arthur J. Clemens, Jr., is employed by employers who are contracted to clean
Busch Stadium in Saint Louis, Missouri after events at the stadium. He is a dues-paying member
of Local One, which is a labor union representing approximately 46,000 members in the service
industry across six contiguous states. Defendants Tom Balanoff, Laura Garza, and Nancy Cross
are agents of Defendant Local One and serve as president, treasurer, and vice president
respectively. Plaintiffs Amended Complaint (ECF No. 46) asserted fifteen counts against
Defendants stemming from, among other things, grievances he had regarding allegedly improper
union elections and increases in membership dues. On September 23, 2019, the Court granted
Defendants’ Motion to Dismiss or in the Alternative for Summary Judgment, which disposed of
all of Plaintiff s remaining claims.

l

Rule 59(e) motions serve the limited function of correcting manifest errors of law or fact or to
present newly discovered evidence and allow a court to correct its own mistakes in the time
immediately following judgment. Harris v. United States, No. 4:18-CV-l 546-JAR, 2018 WL
6305593, at *1 (E.D. Mo. Dec. 3, 2018) (citing Innovative Home Health Care, Inc. v. P.T.-O.T.
Assocs. ofthe Black Hills, 141 F.3d 1284,1286 (8th Cir. 1998)). Rule 59(e) motions cannot be
used to relitigate old matters or to raise new arguments, tender new legal theories, or present
evidence that could have been offered or raised before the entry of judgment. Exxon Shipping
Co. v. Baker, 554 U.S. 471,486 n.5 (2008). A Rule 59(e) motion “is not intended to routinely
give litigants a second bite at the apple, but to afford an opportunity for relief in extraordinary
circumstances.” Barnett v. Roper, 941 F. Supp. 2d 1099, 1104 (E.D. Mo. 2013) (internal
quotation marks and citation omitted) (emphasis in original).
-2-

.

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 3 of 6 PagelD #: 1281

I. Count III
In his first motion to reconsider (ECF No. 106), Plaintiff argues the Court “may have
overlooked or failed to consider evidence, statements, and documents that support” his third
cause of action. Count III of Plaintiffs Amended Complaint asserted that Local One raised
monthly membership dues from $39 to $41 for the calendar years 2009-2011 without a valid
vote. Specifically, Plaintiff claims evidence in the record establishes that Cross admitted a
clerical error caused the dues increase from $37 to $41. He claims that his letter appealing Vice
President Cross’s refusal to refund the difference went ignored by President Balanoff. Plaintiff
also claims he and another union member approached someone at the Office of LaborManagement Standards (“OLMS”), but that person informed them that OLMS did not have
jurisdiction over the dispute. When defense counsel asked Plaintiff during his deposition
whether he had done anything further to exhaust his remedies concerning his complaint about the
increased union dues, Plaintiff responded “No, that’s it.” (Dep. of Arthur Clemens at 25:5-24,
ECF No. 66-4)
The Court did not overlook the evidence Plaintiff cites. Rather, such information does
not refute the Court’s conclusion that Defendants were entitled to summary judgment on Count
III because Plaintiff failed to exhaust internal union remedies before filing his private lawsuit as
required by Local One’s bylaws, Service Employees International Union’s constitution, and §
101(a)(4) of the Labor-Management Reporting and Disclosure Act (LMRDA), 29 U.S.C. § 41
1(a)(4). As explained in the Memorandum and Order of September 23, 2019 (ECF No. 104):
Article XXII of Local One’s Constitution and Bylaws provides:
Section 1. Subject to the provisions of Section 2, the President shall be
empowered to decide disputes between members relating to their work or their
responsibilities to each other or to the Local Union and to decide the claim of
members concerning the adjustment of their grievances against employers or

-3 -

-

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 4 of 6 PagelD #: 1282

Union Representatives. The decision of the President shall be final and binding in
such matters, except that a member who is not satisfied with such decision shall
have the right to appeal as provided in Section 2 hereof. It is expressly
understood that, as a condition of membership, each member agrees to be bound
by the provisions of Sections 1 and 2 of this Article and to exhaust all procedures
and remedies provided therein and to refrain from the institution or prosecution
of any action in any court, tribunal or other agency until the procedures and
remedies therein are fully exhausted. Any member who brings any action in
violation of this provision may, in addition to other penalties, be required to
reimburse the Local Union or its officers for the costs’ and attorneys [sic] fees
incurred in defending such action.
Section 2. Any member who has a dispute as defined in Section 1 shall, within
ten (10) days from the date such dispute arises, appeal in writing to the President
by certified mail. If such member is not satisfied with the decision of the
President, or if the President has not rendered a decision within fifteen (15) days
following receipt of the appeal, the member may appeal his or her case to the
Appeals Committee ofthe Executive Board. The Appeals Committee shall consist
of five (5) Executive Board Members assigned by the President. Any such appeal
to the Appeals Committee of the Executive Board shall be filed in writing by
certified mail with the Secretary-Treasurer. The decision of the Appeals
Committee shall be due or rendered not later than thirty (30) days after receipt of
the appeal. The decision of the Appeals Committee of the Executive Board shall
be subject only to such further appeal as may be permissible under the
Constitution and Bylaw of the International Union.
(ECF No. 66-1, at 13) (emphasis added)
As explained in the Memorandum and Order of September 23,2019, Plaintiff admitted in
his deposition that he did not follow the prescribed appeal process after President Balanoff failed
to respond. Accordingly, the Court finds that Plaintiff has failed to demonstrate any mistake in
the Memorandum and Order of September 23,2019 to warrant the extraordinary relief afforded
by Rule 60(b). Plaintiff’s first motion for reconsideration (ECF No. 106) is denied.
II.

Motion to Enjoin Use of Treasury Money to Pay Legal Fees

In his second motion for reconsideration (ECF No. 107), Plaintiff again moves to enjoin
Defendants from using treasury money to pay legal fees to defense counsel. Plaintiff does not
offer any argument that the Court erroneously denied his previous two motions seeking to enjoin

-4-

.

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 5 of 6 PagelD #: 1283

payments to defense counsel (ECF Nos. 18 & 94). Rather, he offers additional purported records
of legal fee billing and accuses defense counsel of bill padding, double billing, and conflicts of
interest. The Court finds that these allegations are without merit. Plaintiff’s second motion for
reconsideration (ECF No. 107) is denied. To the extent Plaintiff’s second motion attempts to
reopen the case to file a new motion to enjoin Defendants from using treasury money to pay
defense counsel, the motion is also denied.
III. Plaintiffs Constitutional Challenge to
In his third motion for reconsideration, Plaintiff argues Rule 5.1 requires the Court to
certify to the Attorney General of the United States that his Amended Complaint questions the
constitutional validity of a federal statute. Fed. R. Civ. P. 5.1(b). The Advisory Committee
Notes for Rule 5.1, however, make clear that
[t]he court may reject a constitutional challenge to a statute at any time. .. . This
rule does not displace any of the statutory or rule procedures that permit dismissal
of all or part of an action — including a constitutional challenge — at any time,
even before service of process.
Id. advisory committee’s notes (2006).
As explained in the Memorandum and Order of September 23,2019, Plaintiffs
constitutional challenge to 29 U.S.C. § 481(c) is without merit and, thus, does not require
certification to the Attorney General. Plaintiff essentially makes a policy argument that modem
technological advancements justify the Court declaring § 481(c) unconstitutional. Such a policy
argument is outside the scope of the Court's jurisdiction and is more properly suited for
Congress. Plaintiffs third motion for reconsideration (ECF No. 108) is denied.
Accordingly,

-5-

•

Case: 4:17-cv-02381-RLW Doc. #: 114 Filed: 10/29/19 Page: 6 of 6 PagelD #: 1284

IT IS HEREBY ORDERED that Plaintiff Arthur J. Clemens, Jr.,’s October 23,2019
memorandum for clerk, which the Court construes as a motion to expedite ruling, is
GRANTED.
IT IS FURTHER ORDERED that Plaintiffs three separate motions for reconsideration
related to the Court’s September 23, 2019 Judgment (ECF Nos. 106, 107, & 108) are DENIED.
Dated thisc^T^day of October, 2019.

RONNIE L. WHITE
UNITED STATES DISTRICT JUDGE

-6-

Additional material
from this filing is
available in the
Clerk's Office.

